                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                              CLOSEOUT MEMORANDUM



ubject: Closeout Memo


    There was no closeout written at the time this case was closed. The following information was
    extracted from the file in conformance with standard closeout documents.

    Our office was informed that the subject' was alleged to have misused NSF's e-mail system. The
    subject was counseled by OIG on misuse of government property.

    Accordingly this case is closed.
